INS-0-99-02




      INSPECTION                      INSPECTION OF
                                  LAWRENCE LIVERMORE
        REPORT                    NATIONAL LABORATORY
                                PROFESSIONAL RESEARCH OR
                                     TEACHING LEAVE




                                        JULY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
      OFFICE OF INSPECTIONS
                                      July 9, 1999

MEMORANDUM FOR THE MANAGER, OAKLAND OPERATIONS OFFICE

FROM:          Sandra L. Schneider /s/
               Assistant Inspector General for Inspections
               Office of Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Lawrence Livermore Na-
               tional Laboratory Professional Research or Teaching Leave”
               INS-0-99-02

BACKGROUND

In March 1999, while conducting other Inspection work, the Department of Energy,
Office of Inspector General determined that officials at the Lawrence Livermore Na-
tional Laboratory (Livermore) had authorized and paid 24 months of “Professional
Research or Teaching Leave” for two Livermore employees. These employees were
research scholars at a local area university during this 24 month period. Professional
Research or Teaching Leave is defined as leave to promote the continuing profes-
sional growth and competence of employees.

In this case, the leave was authorized and paid in a manner that appears to be inconsis-
tent with the terms and conditions of the Livermore contract with the Department.
Specifically, the Livermore Management and Operating Contract in effect at the time
stated that such leave was not to exceed 12 months. However, the two Livermore
employees were authorized leave for a period that was double that allowed under the
contract.

The objectives of this inspection were to determine if the authorization of the 24
months of Professional Research or Teaching Leave for the two Livermore employees
was inconsistent with the provisions of the Livermore contract; and if the amount of
the leave in excess of the 12 months allowed under the contract constituted an unal-
lowable cost.

RESULTS OF INSPECTION

Actions taken by Livermore management officials in approving the leave for the two
Livermore employees were inconsistent with the provisions of the Livermore Manage-
ment and Operating Contract. Specifically, Livermore officials approved Professional
Research or Teaching Leave for two employees for a 24 month period of time rather
than the 12 months allowed by the contract. In addition, Livermore officials paid an
estimated $306,152 in unallowable wages and benefits to these two employees for the
12 month period in excess of that allowed by the contract.
                                          2

We recommended that Oakland take action to recover the $306,152 in unallowable
costs and review the Livermore Professional Research or Teaching Leave program to
determine if there are other situations where such leave has been granted in violation
of the contract provisions.

MANAGEMENT REACTION

Management concurred with the finding and recommendations and is planning to take
the recommended actions.


cc: Director, Office of Science
    Leader, Audit Liaison Team, CR-2
INSPECTION OF LAWRENCE LIVERMORE NATIONAL LABORATORY
PROFESSIONAL RESEARCH OR TEACHING LEAVE

TABLE OF
CONTENTS
                    Overview

                    Introduction and Objective … … … … … … … … … … … … ..    1

                    Observations and Conclusions … … … … … … … … … … ..      1

                    Lawrence Livermore National Laboratory Officials
                    Inappropriately Paid Professional Research or Teaching
                    Leave Expenses for Two Employees

                    Details of Finding … … … … … … … … … … … … … … … … …     3

                    Recommendations … … … … … … … … … … … … … … … … ..       5


                    Appendix

                    Scope and Methodology … … … … … … … … … … … … … … .      6
Overview

INTRODUCTION AND        In March 1999, while conducting other Inspection work, the
OBJECTIVE               Office of Inspector General determined that officials at the
                        Lawrence Livermore National Laboratory (Livermore) had
                        authorized and paid 24 months of “Professional Research or
                        Teaching Leave” for two Livermore employees. These
                        employees were research scholars at a local area university
                        during this 24 month period. Professional Research or
                        Teaching Leave is defined as leave to promote the continuing
                        professional growth and competence of employees.

                        In this case, the Professional Research or Teaching Leave
                        was authorized and paid in a manner that appears to be
                        inconsistent with the terms and conditions of the Livermore
                        contract with DOE. Specifically, the Livermore Management
                        and Operating Contract in effect at the time stated that such
                        leave was not to exceed 12 months. However, the two
                        Livermore employees were authorized leave for a period that
                        was double that allowed under the contract. The current
                        contract also limits the length of allowed Professional
                        Research or Teaching Leave to a period not to exceed twelve
                        months.

                        The objective of this review was to determine if the
                        authorization of the 24 months of Professional Research or
                        Teaching Leave for the two Livermore employees was
                        inconsistent with the provisions of the Livermore contract, and
                        if the amount of leave in excess of the 12 months allowed
                        under the contract constituted an unallowable cost.

OBSERVATIONS AND        Our inspection found that actions taken by Livermore
CONCLUSIONS             management officials in approving the leave for the two
                        Livermore employees were inconsistent with the provisions of
                        the Livermore Management and Operating Contract. These
                        actions included:

                              • Livermore officials approved Professional
                                Research or Teaching Leave for two employees
                                for a 24 month period of time rather than the 12
                                months allowed by the contract.

                              • Livermore officials paid an estimated $306,152
                                in unallowable wages and benefits to these two
                                employees for the 12 month period in excess of
                                that allowed by the contract.


 Page 1            Report on Inspection of Lawrence Livermore National Laboratory
                                         Professional Research or Teaching Leave
              In our opinion, Livermore management did not comply with
              the terms of the contract. Therefore, the DOE Oakland
              Operations Office should recover all unallowable costs
              incurred by Livermore.




Page 2   Report on Inspection of Lawrence Livermore National Laboratory
                               Professional Research or Teaching Leave
Lawrence Livermore National Laboratory Officials Inappropriately Paid
Professional Research or Teaching Leave Expenses for Two Employees
Allowability of          Appendix A, “Personnel Administration,” of the Livermore
Professional Research    Management and Operating Contract (W-7405-ENG-48) with
or Teaching Leave        the Regents of the University of California for the
                         management of the Lawrence Livermore National
                         Laboratory, dated October 1, 1992, states that Professional
                         Research or Teaching Leave is granted to promote the
                         continuing professional growth and competence of
                         employees. Appendix A states that Professional Research
                         or Teaching Leave may be granted “to a limited number of
                         exempt employees” by the Laboratory Director. Appendix A
                         states that “the candidate must be one of professional ability,
                         with a firm plan of study, teaching, or research which is
                         clearly relevant to the interests of the Laboratory and the
                         individual’s competence.” Appendix A also states that the
                         period of leave may not exceed 12 months.

Review of Livermore      A review of Livermore employment history files revealed that
Employment and Payroll   two Livermore employees were originally placed on
History Information      Professional Research or Teaching Leave for a period of 12
                         months. Their leave began on October 17, 1994, with a
                         return date of October 16, 1995. However, the period of
                         leave was subsequently extended by Livermore officials for
                         an additional 12 months to October 16, 1996. A review of
                         Livermore payroll records for the two individuals revealed
                         that both employees were in a pay status during the 24
                         month leave time frame, and that their salaries were paid
                         with DOE funds.

                         The original authorization for the Professional Research or
                         Teaching Leave was 12 months for each employee.
                         Documentation shows that this period of leave was properly
                         authorized by the Laboratory Director. However, a 12 month
                         extension was requested for each employee by a Lawrence
                         Livermore National Laboratory Associate Director. This
                         extension was then authorized by an administrator on the
                         Director’s staff without any consideration of the 12 month
                         time limitation in the contract.

                         The Livermore administrator who approved the 12 month
                         extensions said he did not recall the specific circumstances
                         that resulted in the request for the extensions, but he said it
                         was felt at the time that it was in the best interest of the
                         Laboratory. The administrator said that, to his knowledge,
                         no one from DOE was consulted or otherwise involved in the
                         decision to approve the extensions, and the provisions of the

  Page 3                                                           Details of Findings
                         contract were never raised when the approvals were given.
                         He said that, when the approvals were granted for the 12
                         month extensions, he considered it a routine matter of
                         continuing something that already existed.

Contract Provisions on   Section (d)(8) “Items of allowable cost,” of Article VII,
Unallowble Costs         Clause 1 “COSTS AND EXPENSES,” of the DOE
                         Management and Operating Contract states that
                         Laboratory employee personnel costs and related
                         expenses are allowable if incurred in accordance with the
                         personnel appendix which is incorporated by reference and
                         made part of the contract. Article V, Clause 9(d)(i)
                         “PROCEDURE TO DISALLOW COSTS (SPECIAL),” of the
                         DOE Management and Operating Contract states that if the
                         Contracting Officer determines that a cost is identified as
                         being contractually unallowable, that the University either
                         will pay the cost by check with University funds, or the
                         University may seek relief through the Issues Resolution
                         Process provided by the contract.

DOE Oakland Operations   As part of this Inspection, the Livermore Contracting Officer
Office Review            at the DOE Oakland Operations Office was requested to
                         conduct a review of records relating to the approval of
                         Professional Research or Teaching Leave. The
                         Contracting Officer said approval of such leave was
                         allowed by the Livermore Management and Operating
                         Contract, that approval was made by the Livermore
                         Laboratory Director, and that DOE Oakland was not
                         required to approve such leave. The Contracting Officer
                         also said she was unaware of any specific DOE approval
                         granted for the two Livermore employees to extend their
                         leave an additional 12 months, for a total of 24 months.

                         Based upon our review of the contract, the circumstances
                         surrounding the approval of the 12 month extensions, and
                         payroll data shown in Lawrence Livermore National
                         Laboratory documents, we have estimated that the two
                         Livermore employees were paid $306,152 in wages and
                         benefits during the time period of October 17, 1995,
                         through October 16, 1996. These costs were fully
                         reimbursed by DOE. Given the specific terms and limits
                         contained within the Department’s contract with the
                         University of California to manage Livermore, we
                         concluded that these costs were unallowable and that DOE
                         should recover these funds.

Page 4                                                             Details of Findings
RECOMMENDATIONS     We recommend that the Manager, Oakland Operations
                    Office:

                          1. Take the appropriate action to recover an
                             estimated $306,152 in wages and benefits paid
                             during the time period of October 17, 1995,
                             through October 16, 1996, for Professional
                             Research or Teaching Leave that was authorized
                             contrary to the provisions of the Livermore
                             Management and Operating Contract. Cost
                             recovery should also include an appropriate
                             amount for interest on the outstanding balance
                             from the date of payment to the Livermore
                             employees to the date of reimbursement to DOE.

                          2. Review the use of the Livermore Professional
                             Research or Teaching Leave program to
                             determine if there are other situations where such
                             leave has been granted in violation of contract
                             provisions, and take the appropriate action to
                             recover any additional unallowable costs.

MANAGEMENT          The DOE Oakland Operations Office concurred with the
COMMENTS            findings and recommendations and agreed to take
                    corrective action to recover the total amount due to DOE no
                    later than October 1999. The DOE Oakland Operations
                    Office will also validate the results of a Livermore review of
                    all Professional Research or Teaching Leave provisions for
                    the period from Fiscal Year 1995 through Fiscal Year 1998.

INSPECTOR COMMENT   We consider management’s comments to the
                    recommendations to be responsive.




  Page 5                                                      Recommendations
Appendix

SCOPE AND     We conducted a limited review of the practices used by the
METHODOLOGY   Lawrence Livermore National Laboratory in managing,
              administering, and funding Professional Research or
              Teaching Leave for two LLNL employees, with particular
              emphasis on the allowability of costs. In reviewing these
              practices, we evaluated:

                1. The DOE Management and Operating Contract
                   with the Regents of the University of California
                   for the management of the Lawrence Livermore
                   National Laboratory that was in effect at the time
                   the Professional Research or Teaching Leave
                   was authorized (Contract Number W-7405-ENG-
                   48, dated October 1, 1992).

                2. The process used by Livermore to authorize and
                   pay for Professional Research or Teaching Leave.

              As part of our review, the Office of Inspections obtained
              information at the Oakland Operations Office and the
              Lawrence Livermore National Laboratory. This inspection
              was conducted during March and April 1999.

              This inspection was conducted in accordance with the
              “Quality Standards for Inspections” issued by the
              President’s Council on Integrity and Efficiency.




Page 6                                          Scope and Methodology
                                                IG Report No.__INS-0-99-02__

                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

       1.      What additional background information about the
               selection, scheduling, scope, or procedures of the audit
               or inspection would have been helpful to the reader in
               understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this report
               to assist management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have
               made this report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General
               have taken on the issues discussed in this report which would
               have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date__________________
Telephone _______________________ Organization _____________

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

                      Office of Inspector General (IG-1)
                      U.S. Department of Energy
                      Washington, D.C. 20585
                      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as
 customer friendly and cost effective as possible. Therefore, this report will be
available electronically through the Internet at the following alternative address:


   Department of Energy Human Resources and Administration Home Page
                         http://www.hr.doe.gov/ig

       Your comments would be appreciated and can be provided on the
              Customer Response Form attached to the report.
